<html>
<title> - PREPARING OUR STUDENTS FOR TOMORROW IN YESTERDAYS SCHOOLS: CONSTRUCTION AND FACILITY NEEDS AT BUREAU OF INDIAN EDUCATION SCHOOLS</title>
<body><pre>[Senate Hearing 111-826]
[From the U.S. Government Publishing Office]



 
                                                        S. Hrg. 111-826

PREPARING OUR STUDENTS FOR TOMORROW IN YESTERDAYS SCHOOLS: CONSTRUCTION 
                AND FACILITY NEEDS AT BUREAU OF INDIAN 
                           EDUCATION SCHOOLS
=======================================================================

                             FIELD HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 11, 2010

                               __________

         Printed for the use of the Committee on Indian Affairs




[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]





                    U.S. GOVERNMENT PRINTING OFFICE
63-677 PDF                      WASHINGTON : 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9cfbecf3dcffe9efe8f4f9f0ecb2fff3f1b2">[email&#160;protected]</a>  







                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            MIKE CRAPO, Idaho
MARIA CANTWELL, Washington           MIKE JOHANNS, Nebraska
JON TESTER, Montana
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 11, 2010...............................     1
Statement of Senator Dorgan......................................     1
Statement of Senator Franken.....................................     2

                               Witnesses

Bongo, Hon. Michael, Secretary/Treasurer, Leech Lake Band of 
  Ojibwe.........................................................    10
    Prepared statement...........................................    12
Mullaney, Hon. Marty, President, Satellite Shelters; Board 
  Member, Modular Building Institute.............................    18
    Prepared statement...........................................    19
Rever, Jack, Director, Office of Facilities, Environmental and 
  Cultural Resources, U.S. Department of the Interior............     5
    Prepared statement...........................................     6
White, Lindsey, Student, Bug-O-Nay-Ge-Shig School................    16
    Prepared statement...........................................    17
Vizenor, Hon. Erma J., Chairwoman, White Earth Tribal Nation.....     8
    Prepared statement...........................................     9


PREPARING OUR STUDENTS FOR TOMORROW IN YESTERDAYS SCHOOLS: CONSTRUCTION 
                    AND FACILITY NEEDS AT BUREAU OF 
                        INDIAN EDUCATION SCHOOLS

                              ----------                              


                      SATURDAY, SEPTEMBER 11, 2010



                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                   White Earth, MN.
    The Committee met, pursuant to notice, at 12:30 p.m. in the 
White Earth Reservation Tribal Administration Building, Hon. 
Byron L. Dorgan, Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. We're going to call the hearing to order in a 
moment. My understanding is that the color guard will be here 
to post the colors. Can we have your attention?
    Mr. Durant. I just want to introduce myself. I'm Robert 
Durant, Secretary/Treasurer for the Tribe, and I belong with 
the group of the White Earth Veterans Association. I'm a very 
proud member of that, and what we have today is members from 
the Korean War, Vietnam, Iraq, and they serve us proudly all 
the time.
    And today's a special day in our nation of memory, memory 
of what happened on 9/11, and when they come together like this 
to show our patronage to all of our people in this here 
country, and they'll be coming in here, so you know what's 
happening, is when they come in, during the drum they'll come 
through, face over here, and we just need to make sure we leave 
enough room for them. So there's a lot of pride here, so feel 
proud, and feel that pride.
    Thank you.
    Senator Franken. Thank you.
    The Chairman. Thank you.
    [Presentation of colors.]
    [Prayer by Tribal leader.]
    The Chairman. We're going to call the hearing to order. 
It's a hearing of the U.S. Senate Indian Affairs Committee. As 
I do so, let me say a special thank you to the Color Guard, 
Secretary/Treasurer, the Tribe, and to others who have arranged 
for the Color Guard to be with us today. It is a very important 
day, and their posting of the colors and representing that to 
us was very special for me, and I know for Senator Franken as 
well. I also want to thank the drum for what they've provided 
as we begin this hearing, so the color guard and drum, thank 
you very much.
    As I indicated, this is a very special day in our country. 
I'm pleased to be here at the invitation of Senator Al Franken, 
a member of the Indian Affairs Committee, and because it's a 
very special memorial day in our country, memorializing 9/11, I 
want to call on Senator Franken at the start of this hearing 
for the purpose of discussing that.
    Senator Franken?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chairman, for holding this 
field hearing. I, too, want to thank the Color Guard for 
posting the colors, and the drums, and this is the anniversary 
of the attacks on 9/11 on the Twin Towers and on the Pentagon. 
In recognition of 9/11, and I left out the plane and the heroes 
on that plane that crashed in rural Pennsylvania, and the Color 
Guard reminds me and reminds us all that American Indians serve 
and volunteer in greater numbers as a percentage than any other 
people in the United States, and that just is underscored by 
that beautiful ceremony, and I'd like to take just a moment of 
silence to remember not only those who died that day, and their 
families, but also all of our troops who have paid the ultimate 
sacrifice since that time, so many of whom are Native 
Americans, so just a moment.
    [Moment of silence.]
    Senator Franken. Thank you. Mr. Chairman?
    The Chairman. Senator Franken, thank you very much.
    This is a remarkable and a wonderful country, and we who 
are privileged to live here celebrate that every day, and one 
of the ways we celebrate it is through our process of self-
governing, and in that process Senator Franken and I have an 
opportunity to serve in the United States Senate, and serve 
especially on the Indian Affairs Committee.
    And we know, too, those who were in this country first, the 
first Americans, who greeted everyone else who arrived here, 
the first Americans, the American Indians, have had agreements 
with the Federal Government through treaties, through trust 
responsibilities, with respect to housing, education, law 
enforcement and health care, among other things.
    We also know our Federal Government has not done as good a 
job as it should have been doing in meeting those obligations 
and the promises that have been made.
    We're here today to talk about education, and we know that 
the Department of the Interior operates 183 schools throughout 
Indian Country in America. About 44,000 students, as well as 
thousands of teachers and staff, who work and who live at those 
schools, they're the responsibility of the United States 
through the Department of the Interior. It's the Department's 
obligation to ensure that these students and the faculty have a 
safe place in which to learn and to teach and to live. Nearly 
one half of the BIA schools, however, are in substandard 
condition. It's not a new issue.
    In 2007 the Inspector General of the United States, in the 
Interior, issued a report indicating the seriousness of the 
physical condition and the issues that reflect the 
deteriorating physical condition of some of these schools.
    In the past several years we have held hearings on the 
construction and the facility needs of the schools. In May of 
this year we held a hearing on student safety issues at schools 
that are run by the BIA. Unfortunately, there's too little 
progress being made. There is now a construction backlog of 
$1.3 billion. The Administration's budget actually recommended 
a nearly nine million dollar decrease in the BIA school 
construction funding. We're taking steps to make sure that 
doesn't happen. We've requested, Senator Franken and I, an 
increase that would bring the funding up to the 2003 level, 
think of that, the 2003 level, of $243 million. But at the 
current level of $52 million, it would take about 25 years to 
build the schools that are needed in Indian Country, and the 
average age of the school is now 33 years old.
    And I want to mention that we had an opportunity to look at 
the high school here this morning. This high school was built 
under the WPA Program in the late 1930s. Bricks are 
deteriorating, falling down, the school is not a satisfactory 
school. Fortunately, there's some help on the way for those 
students, but this school is pretty typical of the problems; a 
1938 school that is in horrible disrepair and is not built to 
facilitate commons where students can congregate, and it just 
is inadequate.
    And so we're here today at the request of Senator Franken. 
I really appreciate very much his leadership, not just for 
Minnesota tribes, but his national leadership on Indian issues. 
I've been so pleased to have someone join the Senate that has 
decided that this is a priority.
    So, Senator Franken, thank you for inviting me. I'm really 
pleased to be here.
    Senator Franken. Thank you for calling this hearing, and 
thank you for your leadership as a Chair. We're going to miss 
you when you leave in January, and your dedication to Indian 
issues has been very inspiring to me and to every member of the 
Committee.
    This hearing is on the topic of Indian school construction 
and repair. By the way, I'd like to welcome you to Minnesota. I 
think you're familiar with it, we're next door to you, you 
know, and to White Earth. And again, thank you for your 
leadership.
    Chairwoman Vizenor and members of the White Earth Nation, 
thank you for hosting this important hearing in your community. 
And I'd also like to extend my welcome to our other witnesses, 
and everyone in the audience. Your participation in this 
important discussion is very much appreciated.
    I've served in the United States Senate for a little over a 
year now, since the beginning of my time addressing the 
deteriorating conditions of the schools that many of our Indian 
children attend everyday. It's been a top priority for me. The 
dangerous, and they are dangerous, building conditions at the 
Circle of Life School here at White Earth or the Bug-O-Nay-Ge-
Shig School at Leech Lake present a major threat to health, 
safety, and the ability to learn of our Indian children. These 
conditions are an injustice. There's just no other way to put 
it. An injustice.
    Ms. White from Leech Lake, I appreciate you joining us here 
today, and I look forward to hearing from you and your 
experience as a student at Bug-O-Nay-Ge-Shig School.
    While there are people in the Federal Government who 
understand and honor the trust relationship between Indian 
tribes and the United States Government, let's face it, Indian 
affairs has unfortunately never been a federal priority. The 
budget for Indian school construction has been consistently cut 
since 2004, and this year's no exception. The President's 
proposed budget for fiscal year 2011 cuts Indian school 
construction, as the Chairman said, by nine million dollars, 
even after accounting for internal transfers between BIA 
accounts. It's true that we're in tough fiscal times, and every 
federal agency must tighten its belt, but even in good fiscal 
times, Indian programs have not been a priority.
    Indian school construction is a prime example of this. 
Since 2004, the BIA hasn't had funding to replace even the 
initial list, even the initial list of 14 Bureau of Indian 
Education (BIE) schools in the worst condition in this country. 
The Circle of Life School here at White Earth, which I'm happy 
to say has finally broken ground for construction, was on that 
list. This year's proposed budget includes funding for the 
replacement of only one school, in Apache County in Arizona. 
How are we ever going to get through the $1.3 billion backlog 
to repair or replace the 64 other Indian schools waiting in 
line, including the Bug-O-Nay-Ge-Shig School at Leech Lake?
    We need to figure out another way to fund and build BIE 
schools. This means thinking both about funding and about 
innovative ways to build schools faster and cheaper without 
sacrificing quality. This year Chairman Dorgan and I worked 
together to call for a return to the level of $293 million that 
Congress appropriated for Indian school construction back in 
2003, as the Chairman mentioned. That funding increase would be 
a good start in addressing the $1.3 billion backlog.
    But the problem with BIE school construction and repair 
doesn't only lie with funding shortages.We know there are 
serious inefficiencies in the bureaucratic processes at the 
Bureau of Indian Affairs. Chairwoman Vizenor and Secretary/
Treasurer Bongo will discuss their experiences with the BIA.
    We also have to look into why it is so expensive to replace 
schools on Indian reservations, and what we can do to bring 
down that cost. Mr. Mullaney and Mr. Rever, I look forward to 
hearing from both of you on that topic.
    Ultimately, doing justice to the children in BIE schools is 
going to take the efforts of all of us working together. Tribes 
and the Federal Government need to come to the table with an 
open mind and a true willingness to collaborate and to address 
this problem. I'm committed to being a partner in the Senate on 
this issue, and I hope to work with many of you young folk. 
Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Franken, thank you very much. We're 
going to hear from five witnesses. We would ask that each 
witness summarize what they have to say. Generally we have five 
minutes of testimony. We do include the entire testimony as 
apart of the permanent record, so we will ask the witnesses to 
summarize.
    First we have Jack Rever, who is the Director of 
Facilities, Environmental and Cultural Resources at the 
Department of the Interior in Washington, DC.
    Then we will hear from the Honorable Erma Vizenor, the 
Chairwoman of the White Earth Tribal Nation here in White 
Earth, Minnesota.
    Next we will hear from the Honorable Michael Bongo, 
Secretary/Treasurer of the Leech Lake Band of Ojibwe in Cass 
Lake, Minnesota. And then a student, Lindsey White, a student 
at Bug-O-Nay-Ge-Shig School.
    And then finally Mr. Marty Mullaney, a board member of the 
Modular Building Institute in Charlottesville, Virginia.
    Mr. Rever, thank you for being with us, and why don't you 
proceed.

         STATEMENT OF JACK REVER, DIRECTOR, OFFICE OF 
    FACILITIES, ENVIRONMENTAL AND CULTURAL RESOURCES, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Rever. Good afternoon, Mr. Chairman, Senator Franken. 
Thank you very much for inviting me to participate in this 
testimony today. I'm Jack Rever, Director of the Facilities, 
Cultural and Environmental Programs within Indian Affairs.
    Mr. Chairman, you've already mentioned the number of 
schools and students for which we have responsibility for 
providing funding, and I want to mention that since 2001, about 
$2.5 billion was put into the improvement of the Indian 
Education Program, but we still have a long way to go.
    And here in the State of Minnesota, we, too, are pleased to 
note the start of the new Circle of Life School, but we also 
point out that we've put in, over the last three years, $1.2 
million for improvements at schools on the other three 
reservations here in Minnesota, and we think that we continue 
to do that to respond to the need for safety and like 
improvements for those schools.
    We also are pleased to note that the American Recovery and 
Reinvestment Act provides $278 million in Indian education 
construction. I'm here to report that we have signed all 
contracts obligating those funds, and we have also involved the 
hiring of unemployed workers on the Indian reservations, 26 
reservations around the United States, and put over 380 
individuals to work, providing them construction skill training 
as well as improving our federal facilities.
    I want to point out that the most critical situations are 
addressed immediately within our Indian Education Program. We 
believe that worst first is the goal of our construction and 
repair program, and that all of our efforts are going to 
provide that safe environment for the education of our 
children.
    We have made significant progress, which you've mentioned, 
but there are 63 schools remaining in poor condition, and a lot 
of work yet to be done. And you've already mentioned, Mr. 
Chairman, that the Assistant Secretary of Indian Affairs, Larry 
Echo Hawk, testified before your Committee on February 25th 
that the true need for correction of all deficiencies is $1.3 
billion, and that's just to bring those 63 schools that remain 
in poor condition into acceptable condition.
    The 2004 list of replacement schools, as you have also 
said, Mr. Chairman, there remains four projects not yet started 
in that program.
    I also want to point out that the No Child Left Behind Act, 
Public Law 107-110 required the Secretary of Interior to 
appoint a negotiated rulemaking committee, which is meeting 
currently in and across the United States, in consultation with 
Indian tribes, to help establish the methodology to establish 
the priorities of construction in our communities, in our 
school communities.
    The fourth meeting will be held in Minneapolis on October 
11th, and we want to invite all interested parties, 
particularly parents, to provide their comments on how the 
priorities should be established.
    Mr. Chairman, that's a synopsis of my statement, and I will 
provide the balance for the record, and I'm prepared to answer 
any questions that the Committee may pose.
    [The prepared statement of Mr. Rever follows:]

   Prepared Statement of Jack Rever, Director, Office of Facilities, 
 Environmental and Cultural Resources, U.S. Department of the Interior
    Good afternoon Mr. Chairman, Mr. Vice Chairman, and Members of the 
Committee. I am Jack Rever, Director, Facilities, Environmental and 
Cultural Resources Management in the Bureau of Indian Affairs in the 
Department of the Interior. The Bureau owns or provides funding for a 
broad variety of buildings and other facilities across the nation. I am 
here today to discuss the status of education facilities in Indian 
Country. Currently, Indian Affairs provides funds for facility programs 
for 183 academic and resident-only facilities on 63 reservations in 23 
states for approximately 41,000 students and two post-secondary 
institutions.
    Since 2001, the condition of Indian Affairs funded schools has 
improved dramatically. To track and report the status of a facility, 
Indian Affairs has established the Facilities Condition Index (FCI) 
which is the ratio of the cost of repairing a building to the cost of 
replacing a building. A school is defined as being in ``poor 
condition'' if it has an FCI of over 0.10. Being in ``poor condition'' 
may, but does not necessarily, imply that critical health and safety 
issues are present. In the last 10 years, over $2.5 billion has been 
provided for construction, repair and maintenance to reduce the number 
of schools in ``poor condition'' by 50 percent. The number of schools 
in poor condition has been reduced from more than 120 of the 183 
schools funded by Indian Affairs ten years ago to 63 today. In fact, we 
are pleased to note that there are 9 new or completely refurbished 
schools that were opened in time for this school year, and another 15 
are expected to open in time for the next school year.
    Here in the State of Minnesota, Indian Affairs is pleased to note 
the recent start of construction on the new Circle of Life School on 
the White Earth Reservation at a cost of $15.4 million. Also, over the 
last three years, more than $1.2 million dollars for improvements and 
repairs has been provided to the three other Indian Affairs funded 
schools in the state, which are the Bug-O-Nay-Ge-Shig School, the Fond 
Du Lac Ojibway School and the Nay-Ah-Shing School.
    Indian Affairs is also pleased to note that the American Recovery 
and Reinvestment Act (ARRA) (Public Law 111-5) provided approximately 
$278 million for construction of Indian education facilities. Of these 
funds, $134.6 million was allocated to replace deteriorating Bureau-
funded schools in a pre-established priority order and $143.1 million 
was allocated for the repair of buildings and education related 
facilities such as communications towers that are necessary to sustain 
and prolong the useful life of Bureau-funded education buildings. 
Construction awards for these projects began in May of 2009 and all 
contracts and education grants for project accomplishment have been 
signed. In all, 141 separate projects at 58 Indian Affairs funded 
schools have been undertaken using ARRA funds. The work includes 3 new 
schools as well as 14 major improvements and repairs projects. This 
investment will result in better school facilities sooner than thought 
possible before passage of the ARRA.
    To ensure that the most critical situations are addressed 
immediately, the Indian Affairs facilities program addresses life 
safety deficiencies first and foremost. These deficiencies are work 
that need to be completed in response to safety and facility inspection 
reports and daily facility deficiency assessments by on site personnel. 
Indian Affairs has ensured that these inspections continue by hiring 
contractors to conduct the workplace safety inspections annually and 
facility assessment inspections on every building every three years or 
as facility conditions require due to special events such as winter 
storms, seismic events or similar incidents. In addition, our 
facilities program is managed by on-site facility managers who have 
immediate access to emergency funds and procedures to correct imminent 
danger situations. More routine work is prioritized through a risk 
assessment code process which is directly related to safety. Funds from 
the Bureau's Minor Improvement and Repair Program, commonly referred to 
as MI&R, are used for the abatement of those identified critical 
deficiencies costing less than $2,500. The Education MI&R program for 
FY 2010 is funded at $7.6 million, and other relevant line items such 
as Condition Assessment, Emergency Repair, and Environmental Projects 
provide an additional $8.1 million for similar work costing more than 
$2,500. As is true for most public school systems, there exists a 
backlog of maintenance and repair work for education facilities at 
Indian Affairs schools.
    While significant progress has been made in the correction of 
education facility deficiencies, 63 schools remain in poor condition 
and there is still work to be done to bring these remaining education 
facilities into acceptable condition. As Assistant Secretary--Indian 
Affairs, Larry Echo Hawk, testified before this Committee on February 
25, 2010, when asked about our estimated school construction backlog, 
we have an estimated school construction need of $1.3 billion.
    This $1.3 billion estimate is the cost to bring the 63 schools 
remaining in poor condition to an acceptable facility condition. This 
figure includes more than simply fixing the deferred maintenance items. 
For example, if a school has a number of leaks in the roof, in the long 
run it would be more economical to replace the entire roof rather than 
continue to fix leaks year after year. Therefore, the cost to replace 
the entire roof is included in the figure above, rather than the cost 
to repair all the separate leaks. Likewise, it might also be more 
economical to replace an entire building or school rather than to 
repair a number of deferred maintenance work items. If this is the 
case, the cost to replace the building is included above. That is why 
it is important to note that the cost to simply repair the deferred 
maintenance at each of these schools on a project by project basis is 
much less than this $1.3 billion.
    The No Child Left Behind Act (NCLB) (Public Law 107-110, Sec. 1042) 
(25 U.S.C. Sec. 2005) requires the Secretary of the Interior, in 
consultation with Indian Tribes, to develop recommended methodology to 
determine priority of need for replacement schools and improvement and 
repair projects. Currently the priorities are largely based on the 
physical conditions of each facility. Indian Affairs recognizes that 
one of the major additional factors that should be included in the 
decision process is how well the school meets education facility 
standards established by Indian Affairs or individual state school 
facility criteria.
    In accordance with the NCLB, the Secretary of the Interior 
established a Facilities and Construction Negotiated Rule Making 
Committee to formulate the methodology and factors to be considered in 
establishing the priority of schools in need of replacement, 
improvements and repairs. We have held three Committee meetings, and an 
additional three are planned. The next meeting will be held in 
Minneapolis, Minnesota, the week of October 11, 2010. Indian Affairs 
encourages all interested parties, especially tribal members, to attend 
and offer suggestions or comments to the Committee regarding this 
important issue.
    Through the Facilities and Construction Negotiated Rule Making 
Committee, Indian Affairs is committed to improving Indian Education 
facilities across Indian Country by prioritizing the most critical 
needs and is working in consultation with Indian communities to ensure 
that schools in poor condition continue to be corrected in that order. 
Indian Affairs does not subscribe to a competitive grant or other 
process to determine the order of correction of facility deficiencies.
    Studies have shown that while the physical condition of a school is 
certainly not the only factor, or even the most important factor, in 
student success, it plays an important role. Indian Affairs is 
committed to ensuring that students are in a safe and secure 
environment.
    This concludes my prepared statement. Thank you for the opportunity 
to address the Committee and I am prepared to respond to any questions 
the Members may have.

    The Chairman. Mr. Rever, thank you very much. We appreciate 
your testimony.
    Next we'll hear from the Honorable Chairwoman of this 
tribe, Erma Vizenor.

  STATEMENT OF HON. ERMA J. VIZENOR, CHAIRWOMAN, WHITE EARTH 
                         TRIBAL NATION

    Ms. Vizenor. Mr. Chairman, Senator Franken, your staff, our 
relative, the Leech Lake Tribe, thank you for honoring us today 
with this very significant hearing.
    I'm going to abbreviate my comments. I want to also say 
that--for everyone here, this is the first Senate Indian 
Affairs hearing held on an Indian reservation in Minnesota as 
far as any of us can remember, and so we are truly honored that 
this hearing is at White Earth.
    I want to go right to my second page here, and I'll submit 
what I have as record. The two issues that are at the very 
heart of the matter, the projected student population at the 
new school that is now under construction at White Earth, 
that's one issue, and the second issue is the list of schools 
needing construction of the BIA. There is a problem with the 
list. The current template for the school population by the BIA 
for a new facility needs to be updated. It simply doesn't 
account for the desire of students who want to attend a 
facility closer to their home that is in good condition.
    The Circle of Life School could be overflowing with our 
tribal students, but due to the condition of the school, our 
students opt to go to other schools. This was an issue with the 
Bureau of Indian Affairs, who wanted to build a school for a 
population of 95 students, not considering any growth, and not 
considering those students who have left, and parents who 
wanted their students, their children, to go to good 
facilities.
    The school, the education of our people, is a trust 
responsibility of the Federal Government. We have prepaid all 
of our education for generations to come.
    In the year 2000 I was Secretary/Treasurer here at White 
Earth, and Mitch Volk, the Principal, and I, went to Aberdeen, 
South Dakota, to a BIE hearing, and requested a new school. 
That was 10 years ago.
    And so we deal with a list. Yes, you're on the list. No, 
you're not on the list. We don't have funding this year. In 
2006 we were told we were on the list. That's before any 
construction on this reservation ever happened. Education was a 
priority, and it still is.
    In 2008 we were uncertain because of budget cuts. We 
finally got word this past spring that we had funding, and of 
that funding, $14 million came from the Bureau of Indian 
Affairs, and the Tribe put in $2 million, to increase the 
number of classrooms for that new school. The Bureau of Indian 
Education wanted to double up high school students, grades, and 
we said no.
    So those are the issues that we have had: The uncertainty, 
the juggling around, the fact of turnover within the Department 
itself, where every time I went to talk to someone, I was 
talking to someone new and educating someone new.
    During my few minutes I have here, we have our money now 
for our new school, and it's under construction, and our 
students will be moving into a new school in a year, and I can 
predict our school is going to be full.
    I want to say that another issue is our tribal colleges; 
BIE obligation, BIE responsibility. In 1997 we established a 
tribal college at White Earth, and the first place that college 
was housed was in an old grocery store, and today it's 
scattered all over the city of Mahnomen, and we're looking for 
money to build a campus. It will cost $20 million to build a 
new campus. That's the responsibility of the Bureau of Indian 
Affairs and the Federal Government.
    And so education is our ticket out of poverty here. I can 
attest to that myself. It's very important. It's a priority for 
us.
    And with that, Mr. Chairman, I close my comments, and I 
submit my record.
    [The prepared statement of Ms. Vizenor follows:]

  Prepared Statement of Hon. Erma J. Vizenor, Chairwoman, White Earth 
                             Tribal Nation
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Madam Chairwoman, thank you very much for 
your testimony. We appreciate your hosting us today as well.
    Next we'll hear from the Honorable Michael Bongo, the 
Secretary/Treasurer of the Leech Lake Band of Ojibwe in Cass 
Lake, Minnesota.

  STATEMENT OF HON. MICHAEL BONGO, SECRETARY/TREASURER, LEECH 
                      LAKE BAND OF OJIBWE

    Mr. Bongo. Welcome Senator Dorgan, Senator Franken, 
distinguished guests, to beautiful northern Minnesota. We're 
very honored and pleased to have you here today to join us, 
especially in such a lovely new facility as this, and I commend 
Chairwoman Vizenor and the Tribal Council here at White Earth 
for their efforts. They've done a remarkable job.
    I'm privileged to be here today to share with you a 
lifelong frustration in dealing with the Bureau of Indian 
Affairs and its lack of accountability and holding trust 
responsibility to American Indian people.
    I would also like to thank the Committee and especially 
Senator Franken in your new efforts to bring greater 
accountability to the Bureau. It's greatly appreciated.
    Chairman Dorgan, I want to thank you for being a lifelong 
friend of American Indian people. It's truly an honor and a 
privilege to be here with you today. Your record certainly 
speaks for itself, and I have many American Indian friends in 
the state of North Dakota who have nothing but honorable and 
respectful things to say about you. Thank you.
    I should not have to remind the people of our great nation 
that our great country was built predominantly on the backs and 
at the great expense of American Indian people. Please don't 
misunderstand me. I am not here today to ask for a handout, but 
rather a hand up, and a renewed investment in our most precious 
resource, our children, who are the future of our people.
    I'm here today in part to discuss the replacement and 
additional funding for not only the Bug-O-Nay-Ge-Shig High 
School, and my colleague has explained some of the conditions 
that our children are going to school in, basically a pole barn 
building, but equally as well to address the inadequate funding 
of all BIA/BIE schools nationwide. The situation has become 
critical and deplorable. We are a great nation, with great 
resources, and our children should not have to suffer by going 
to school in inadequate facilities that are less than conducive 
for learning. Sadly, a quick review of the funding history of 
the BIA schools will show a great disparity and signifies a 
complete lack of investment on our nation's part in the 
education of American Indian children. This should not and 
cannot be condoned any longer.
    Presently our children attending the Bug-O-Nay-Ge-Shig 
School are subject to what I can only characterize as a 
learning environment that is far, far from being conducive as a 
proper and adequate learning facility. The current high school 
facility is a basically metal, flat, pole barn building, as you 
can see. One third of the facility was completely destroyed in 
1992 by a gas explosion. The solution was to add more modular 
pole barn constructed-type facilities. It's inadequate. It's 
deplorable and shameful.
    The current facility has serious structural and mechanical 
deficiencies, lack of proper insulation, does not come close to 
meeting the very basic safety, fire and security standards due 
to very poor construction from the very beginning.
    The facility jeopardizes the health and safety of students 
due to poor indoor air quality from mold, funguses, and faulty 
HVAC systems. The facility also suffers from rodent 
infestation, which frequently disrupts class. The roof leaks, 
is sagging, we have holes in the roof from ice buildups over 
the years, uneven floors, poor lighting, sewer problems, lack 
of handicap accessibility, and the inadequacy and the safety 
issues continue to go on and on and on.
    While we greatly appreciate Mr. Rever's visit to the school 
a few years ago, to see the current conditions firsthand, we're 
greatly concerned about the BIA and BIE's growing list of 
excuses. The BIA blames OMB. The OMB blames the BIA. Year after 
fiscal year, as a result, there is no positive forward 
movement, the problems continue to grow and grow, and our 
children continue to pay the price.
    We've got to the point that it's become laughable in Indian 
Country, to the point where a few months back I shared a story 
with Senator Franken about a friend of mine who started off 35 
years ago working for the BIA. After five years, he transferred 
to the Indian Health Service. He recently retired, and I ran 
into him one day, and I asked him, I said, ``Ed, how's retired 
life treating you?'' And he started laughing. He said, ``Oh, 
Mike, he said, ``It's great,'' he said, ``it's just like 
working for the BIA all over again.'' That's how the situation 
has become, laughable.
    Chairwoman Vizenor, shared the shelving that we've 
experienced with the BIA. You're on this list. No, you're on 
that list. No, you're not on any list. Okay, is there even a 
list? Why does that target keep moving and changing? Clearly 
someone's not doing the job they are paid to do, and the 
situation has reached an unacceptable level that cannot be 
tolerated any longer, and the BIA must be held accountable. 
There's no ifs, ands or buts.
    The current state of affairs, I cannot help but wonder if 
any of the BIA senior officials would send their children to 
school in such an environment that we are forced to send our 
children to school in. I think not.
    In conclusion, the United States Government has asked 
American Indian people to overcome poverty, dependency and 
addiction through education, and while we wholeheartedly agree, 
all we are asking for is the schools to do just that. What we 
are simply asking for is the meager resources to provide our 
children with a safe, healthy and adequate facility that is 
conducive to learning in a healthy learning environment. I do 
not think that that's asking for too much.
    As I stated previously, what we're asking for is a hand up, 
not a handout, and given the vast resources of this great 
nation of ours, I do not believe that requesting $15 million 
for replacement of a facility that should have been replaced 20 
years ago, is asking for too much. We can spend billions and 
billions of dollars on war, but not one dime on education of 
Indian children? As I indicated, this is no longer acceptable, 
and it is no longer tolerable. And as I've told other 
colleagues in Washington, DC, and other public officials, I 
will not let this issue go until our words are heard and 
action's taken.
    Again, I want to thank you for your time today, gentlemen. 
Thank you for coming to Minnesota. Mr. Dorgan, you will be an 
asset who is deeply missed to our people when you retire. Thank 
you, gentlemen.
    [The prepared statement of Mr. Bongo follows:]

 Prepared Statement of Hon. Michael Bongo, Secretary/Treasurer, Leech 
                          Lake Band of Ojibwe
    Good afternoon Chairman Dorgan, Senator Franken, and Members of the 
Committee. My name is Mike Bongo, and I am the Secretary/Treasurer for 
the Leech Lake Band of Ojibwe. Thank you for inviting me to testify 
today to discuss the Band's long struggle with the Bureau of Indian 
Affairs (BIA) to replace our high school facility at the Bug-O-Nay-Ge-
Shig (High School), which is administered and funded by the Bureau of 
Indian Education (BIE).
    First, I would like to take a moment to thank Senator Franken for 
his tremendous efforts to assist us in addressing our High School's 
construction need, including requesting this hearing, and for pushing 
the BIA to step up to the plate. We share Senator Franken's deep 
frustration with the Office of Management and Budget (OMB) and with the 
Department of the Interior (DOI) over their lack of responsiveness to 
address this problem as well as the difficulties we have experienced in 
obtaining information about the situation from the BIA.
History of Indian Education
    Before discussing the specific needs of the High School, I would 
like to briefly discuss the history of Indian education in America. As 
this Committee is well aware, federal laws, treaties, and policies 
acknowledge the Federal Government's obligation to provide for the 
education of American Indian children.
    After formation of the United States, Indian tribes ceded hundreds 
of millions of acres of our homelands to the Federal Government to help 
build this nation. In return, the U.S. made promises to make the 
resulting reservations permanent livable homes, including providing for 
the education, health, and general welfare of reservation residents. 
These treaty promises were made in perpetuity, remain the supreme law 
of the land, and do not have an expiration date. However, as you will 
see and hear today, these promises have not been kept, and our children 
suffer because of it.
Pressing Need to Replace High School Facility at Bug-O-Nay-Ge-Shig
    The Bug-O-Nay-Ge-Shig is located in Bena, Minnesota, operated by 
the Leech Lake Band of Ojibwe and governed by the Bug-O-Nay-Ge-Shig 
Board. The School serves nearly 300 Native American children in grades 
K-12 who commute from 14 communities located within five counties 
within a 70-mile radius of the School. The School was founded in 1975 
with 35 Ojibwe students from the Leech Lake Reservation in response to 
parental concerns that public schools were not meeting the academic and 
cultural needs of Ojibwe students. Since that time, the School has 
transformed itself into a magnet school, teaching state-approved 
curricula with Ojibwe cultural components. Given the educational 
opportunities the School provides to Native American students, 
enrollment in the School overall has steadily increased over the years.
    The elementary and middle school facilities are in satisfactory 
condition, but the High School is in dire need of replacement. The 
current High School facility is a metal-clad pole barn, formerly used 
as an agricultural building. One-third of the high school facility was 
destroyed in a gas explosion in 1992. The facility has serious 
structural and mechanical deficiencies and lacks proper insulation. The 
facility does not meet safety, fire, and security standards due to the 
flimsiness of the construction materials, electrical problems, and lack 
of alarm systems. Further, the building lacks a communication intercom 
system, telecommunication technology, and safe zones, which puts 
students, teachers, and staff at great risk in emergency situations.
    Also, the facility jeopardizes the health of the students and 
faculty due to poor indoor air quality from mold, fungus, and a faulty 
HVAC system. The facility also suffers from rodent infestation, roof 
leaks and sagging roofs, holes in the roofs from ice, uneven floors, 
poor lighting, sewer problems, lack of handicap access, and lack of 
classroom and other space. These are just a few of the facility's 
numerous deficiencies. Due to the unsafe and undesirable condition of 
the High School, many students leave after middle school to attend the 
public high school. Students are embarrassed about the condition of the 
High School, resulting in a negative image of the School in the 
community and a lower matriculation rate.
    The High School is on the BIA's list of schools in need of 
replacement and has exceeded its life expectancy by decades. The BIA 
categorizes the high school facility as being in ``poor'' condition. 
The BIA Midwest Regional Office for the Office of Indian Education 
Programs compiled a report in 2007, expressing strong concerns about 
the electrical problems, potential fire issues, and student safety. The 
BIA Office of Facilities, Environmental, Safety, and Cultural 
Management had documented the deficiencies of the High School; and the 
Director of that office, Jack Rever, who we understand is testifying 
today, toured the high school facility last year. We appreciate Mr. 
Rever's efforts to tour and to see first-hand the deficiencies and 
deplorable condition of the High School. We have prepared design plans 
for a replacement high school facility and estimate the cost to be 
approximately $15 million.
    While we appreciate Mr. Rever's efforts, in an August 26, 2009 
letter in response to a letter from the Minnesota delegation, Secretary 
Salazar stated that DOI is still working to replace 5 of 14 other 
schools on a list generated over 6 years ago and must engage in a 
negotiated rule-making process that will take at least a year before it 
can determine DOI's future budget requests for BIE facilities 
construction as well as the priority of replacement of the High School. 
The letter also states, ``As you point out in the letter, the condition 
of the Bug-O-Nay-Ge-Shig High School does not meet current education or 
construction code requirements and is among the more than 70 schools 
funded by the Bureau of Indian Education that are in poor condition.'' 
This letter alarms us because it shows that DOI does not have a 
comprehensive plan of action to address these dire needs even though 
these schools have been in this condition for a long time. There is an 
urgent need to replace the High School, and we ask that DOI and the 
Congress treat it as such, especially considering that the lives of 
children are at stake.
Urgent Need for Action to address BIE Construction Backlog
    The discussion of the construction needs of Indian schools has been 
ongoing for more than a decade. This Committee has held numerous 
hearings where the issue of Indian school construction was discussed. 
Federal officials testify, point fingers, and yet nothing has been 
resolved.
    When we have met with the BIA and OMB over the past couple of 
years, they each tell us that it is not their agency's fault but the 
other agency's fault that there is no funding to replace the High 
School. BIA tells us that they have no money for school construction 
and to talk to OMB, and OMB tells us that they provide funding to BIA 
for construction and that BIA is not utilizing the funding effectively. 
At the end of the day, DOI and OMB are quick to blame each other but 
provide no solutions, forcing our children to shoulder the burden. 
Further, it is extremely difficult navigating the byzantine BIA 
bureaucracy and its layers to obtain school construction information.
    This run-around is unacceptable. Section 7101 of Title VII of the 
No Child Left Behind Act (NCLB) states:

        It is the policy of the United States to fulfill the Federal 
        Government's unique and continuing trust relationship with and 
        responsibility to the Indian people for the education of Indian 
        children. The Federal Government will continue to work with . . 
        . Indian tribes . . . toward the goal of ensuring that programs 
        that serve Indian children are of the highest quality and 
        provide for not only the basic elementary and secondary 
        educational needs, but also the unique educational and 
        culturally related academic needs of these children.

    In accordance with its obligation to Indian children, the United 
States must work with us to seek a solution to this problem instead of 
ignoring the issue and finger pointing.
    We recognize that previous Administrations had a hand in creating 
the BIE construction backlog, which is at least $1.3 billion; however, 
looking at the current Administration's funding requests since it has 
been in office, it seems that--despite statements to the contrary--the 
need to improve BIE school facilities is not a priority.
    Assistant Secretary Larry Echo Hawk testified at this Committee's 
May 13, 2010, hearing on Indian school safety stating, ``The 
Administration is committed to providing high-quality educational 
opportunities for the students who are educated in the 183 BIE-funded 
elementary and secondary schools, consistent with the Government's 
trust responsibility for Indian education. In order to fulfill this 
responsibility, it is imperative that the Department provide these 
students with safe and healthy environments in which to learn.'' 
Unfortunately, DOI's budget requests do not match the Assistant 
Secretary's statements.
    The FY11 budget request for Indian school construction funding is 
$53 million, a $60 million cut from the FY10 enacted level of $113 
million. The Administration justifies this proposed budget cut by 
pointing to Recovery Act funding for BIE school construction needs. 
However, we all know that one-time funding under the Recovery Act of 
$277.7 million for BIE construction will not address the tremendous 
backlog and that there needs to be sustained increased funding over 
multiple years to truly address this need. \1\ Looking at the 
Administration's FY11 request of $53 million, it only proposes 
implementing a partial replacement of one school campus and a partial 
of replacement of one school facility.
---------------------------------------------------------------------------
    \1\ The Recovery Act authorized the issuance of $400 million in 
qualified Indian school construction bonds ($200 million for each 
calendar year in 2009 and 2010). The bonds provide tax credits to 
investors in lieu of interest. However, to date, zero dollars have been 
allocated. DOI indicates that it lacks the authority to establish an 
escrow account to provide tribes with funding to pay bondholders. We 
urge Congress to provide this authority to ensure that this opportunity 
is not lost.
---------------------------------------------------------------------------
    These cuts for Indian school construction represent a disturbing 
trend that spans both the Bush and Obama Administrations and both 
parties' control of Congress. The enacted levels for Indian school 
construction over the past 7 fiscal years have steadily and rapidly 
declined. The FY05 enacted level for Indian school construction was 
$263.3 million, the FY06 enacted level was $208.9 million, the FY07 
level was $204.9 million, the FY08 level was $142.9 million, the FY09 
level was $128.8 million, the FY10 level was $113 million, and as noted 
above, the proposed level for FY11 is an appalling $53 million.
    The Administration's failure to request and Congress' failure to 
appropriate sufficient funding for BIE school construction is 
unconscionable in light of recent DOI Office of Inspector General 
reports finding ``severe deficiencies'' at BIE schools that ``have the 
potential to seriously injure or kill students and faculty and require 
immediate attention to mitigate the problems.'' \2\ One-third of the 
183 BIE schools are in poor condition and in significant need of repair 
or replacement. Of the 4,495 education buildings in the BIA inventory, 
half are more than 30 years old and more than 20 percent are older than 
50 years. On average, BIA education buildings are 60 years old, while 
the national average for public schools is 40 years.
---------------------------------------------------------------------------
    \2\ Department of the Interior Office of Inspector General Flash 
Report, Bureau of Indian Affairs and Bureau of Indian Education: 
Schools in Need of Immediate Action, C-IN-BIA-0008-2007 (May 2007) 
(emphasis added).
---------------------------------------------------------------------------
    While we understand budgetary constraints, the Administration's and 
the Congress's strategy to counter the recession has been to stimulate 
economic growth through construction projects that create jobs and that 
provide skills for workers. The replacement of our High School--and 
other BIE schools for that matter--fit perfectly within the economic 
recovery strategy; however, the funding requested by the Administration 
and provided by the Congress for BIE school construction does not even 
make a dent in the construction backlog. Instead, it seems that we are 
going backwards not forwards in meeting the educational needs of Indian 
students, which includes providing adequate facilities that foster 
learning.
    As noted above, the United States owes our students the opportunity 
to attend school in a safe environment that maximizes their educational 
opportunities. Instead, our students attend high school in a sub-
standard, dangerous environment that is not conducive to learning. This 
affects their self-worth, creates feelings of inferiority, and sends a 
message to them that their education and even their lives are 
unimportant. Our hope is that this hearing will shine a spotlight on 
this problem and that, as a result, the Administration and the Congress 
will work together to quickly develop a comprehensive plan of action to 
address the construction needs not only at the Bug O Nay Ge Shig High 
School but also at all other BIE schools. The Federal Government's 
responsibility for the education of Indian people is in response to 
specific treaty rights; and anything less than full funding of Native 
education programs signifies increased negligence of its trust 
responsibility.
Recommendations
    Due to the serious health and safety concerns at the Bug O Nay Ge 
Shig High School, the BIA should ensure that the replacement of the 
High School is one of its highest priorities.
    Further, the United States should address the tremendous backlog in 
BIE construction. The only way that this backlog can be addressed is if 
the Administration and the Congress work together aggressively to not 
only develop a comprehensive multi-year plan but also to adequately 
fund its implementation. An example of a comprehensive plan is the 
Indian Health Service's 5-year priority construction list, which it 
updates once a year. Even though there is a construction backlog at 
IHS, at least there is transparency. In addition, IHS works 
cooperatively with tribes so that they know the status of their health 
care facilities projects at IHS, which is not the case with the BIA. 
However, a plan is only as good as its execution, and the 
Administration and the Congress must commit to implementing it.
Conclusion
    As you know, Indian tribes ceded millions of acres in exchange for 
adequate education, health care, and other basic services. The failure 
to meet these obligations is jeopardizing an entire generation of 
Indian children. We thank you for your efforts to ensure that the 
United States lives up to this solemn responsibility, and look forward 
to working with you and the Administration to rebuild BIE schools and 
provide a safe learning environment for our children.

    The Chairman. Mr. Bongo, thank you very much. I appreciate 
your kind words, and certainly appreciate your testimony.
    Next we're going to hear from Lindsey White. Lindsey is a 
student at the Bug-O-Nay-Ge-Shig School. I hope I have that 
right. You can say it better than I can, Lindsey, I'm sure. But 
we appreciate your being here to give us the perspective coming 
from a student, so you may proceed.

             STATEMENT OF LINDSEY WHITE, STUDENT, 
                    BUG-O-NAY-GE-SHIG SCHOOL

    Ms. White. I'm currently a senior at the Bug-O-Nay-Ge-Shig 
School, and I've been there 12 years, kindergarten through 12th 
grade, and quite frankly, I'm pretty amazed at how long we've 
had that school there. To me it doesn't look like a high 
school, it's like what Mr. Bongo said, a barn, a garage.
    Inside, like you've seen in these pictures here, the one to 
the left is our science room. All you see, all the wires, 
there's nothing really covering the floor, there's just metal 
there, and there's ground, and that's about it.
    Over on the right is our English class. Nothing really 
there either. A lot of our classrooms are like this. And like 
also what Mr. Bongo stated earlier, that currently, as we 
speak, our ceilings in our rooms are leaking, and this is 
causing water damage on our floors and our ceilings. And a lot 
of our rooms, too, in our classrooms, it's hot in one room, and 
then when we change classes it's cold in the next. There's no 
stable temperatures.
    And it's kind of hard to go to class,because we have to go 
walk from the high school and all the way to our main building. 
That's pretty faraway. We have to do that in our drills. We 
have to run from the high school all the way down to the main 
building just for a tornado warning, like when we have to do 
drills. It's pretty hard. For me it's a distraction.
    A lot of things we have in our school, our high school, 
give me headaches. A lot of our classmates can agree. There's 
not windows in our classrooms. It's not comfortable.
    What else? I don't know, but I've been in school for a long 
time, as I've said, and it's just, like Mr. Bongo said, it's 
kind of laughable, because many times I've heard throughout my 
school, my education, I've heard, yes, we're going get a new 
school here, yes, we're going to get a new school, but never 
happened. I don't know.
    And one thing, though, I like about my school, even though 
it's the way it is, the teachers are nice. I love my teachers. 
But it's kind of hard to work with all these distractions and 
conditions. It's distracting.
    I just wish that we get a new school, especially for the 
younger kids, so they don't have to go to school in these 
conditions where it's hard to concentrate, hard to learn.
    And in the winter sometimes it's really hard, because it's 
like really cold in our building. We have to wear our winter 
coats in our room.
    And whatever questions you may have for me, I would like to 
answer them.
    [The prepared statement of Ms. White follows:]

 Prepared Statement of Lindsey White, Student, Bug-O-Nay-Ge-Shig School
    Hello, everyone. My name is Lindsey White. I'm a member of the wolf 
clan and I live in Cass Lake. I am currently a senior at the Bug-O-Nay-
Ge-Shig School. Thank you for the invitation and opportunity today to 
represent my school.
    I've been attending the Bug-O-Nay-Ge-Shig School for the past 
thirteen years. All thirteen years I've been told that education is 
very important, but it's hard for me to believe this when I see how my 
school looks compared to the other local schools.
    The Bug-O-Nay-Ge-Shig School was formed in 1975. My school was not 
constructed with the intention of being a long-term structure for a 
high school. It is a metal-clad temporary structure that was built over 
twenty years ago. Today we have almost three-hundred Native American 
students from across the many reservations around Minnesota.
    Currently, the carpet in our high school is soaked with water 
because leaks from the ceiling and the windows. Our building fails to 
meet safety and security standards because this. We have air quality 
issues that include mold and fungus. This cannot be safe for our 
students and staff. Also, our heating and cooling system is 
insufficient. Another safety concern is the lack of security during 
emergencies. There are no ``safe'' areas in our building to use during 
an emergency or disaster; we often have to run to the elementary 
building during severe weather. Students and staff have also seen 
evidence of rodents in our building. Our school also lacks up-to-date 
communication technology and basic integrated alarm systems. Large 
group school and community meeting areas are insufficient as well; we 
have to meet in the gym, which is located almost a quarter mile away, 
or crowd into a small room in our high school building.
    All of these problems have effected my education in a negative way. 
Many of the classrooms I'm in lack windows, which makes the air stuffy. 
With an insufficient heating and cooling system, I have some classrooms 
that are very cold and others that are very warm. This is distracting 
when trying to do my work. The many fluorescent lights give me a 
headache when I'm trying to concentrate in class. Our hallway has 
uneven floors. This creates safety issues for students and staff 
walking through our hallways. Overall, the quality of our high school 
building is in poor condition. When students are expected to attend and 
work in a school like ours, it's very difficult to work and take school 
seriously when our building is in the shape that it is.
    For me, as a student going to school in these conditions, it is 
frustrating because these things are distractions and take away from 
our academics. It's disappointing that our classrooms are small and 
inadequate. I am embarrassed that our school is this way, when many 
other schools look more like a high school should. Despite these 
serious concerns, our school provides a quality education when we don't 
have to worry about safety issues. The Bug School focuses on 
integrating culture into academics. Students have the opportunity to 
participate in classes such as seasonal activities, Ojibwe Language, 
drum and dance, cultural arts, and Ojibwe History. We also have a 
language immersion program.
    In closing, I want to say we deserve a building that is secure and 
safe. Our education is just as important as anyone else's. Because we 
choose culture as a part of our education, we should not suffer a 
second or third rate building. If education is a priority, why has 
nothing improved in our high school building after so many years?
    Again, thank you for this opportunity to represent my school and 
for listening.
    Miigwech Biizendawieg

    The Chairman. Lindsey, thank you very much. We appreciate 
you taking the time on a Saturday to come as a student and 
participate in a hearing to talk about education.
    Next, and finally, we'll hear from Marty Mullaney, who is a 
board member of the Modular Building Institute in 
Charlottesville, Virginia, and I might mention one of the 
reasons that we've asked Mr. Mullaney, and we appreciate him 
traveling to be here, is our Committee has been very interested 
in this question of what are the costs, how are you able to 
provide good facilities at a lower cost, and modular 
construction is something we'd be very interested in the areas 
of law enforcement and schools and so on, so Mr. Mullaney, 
thank you for being here. And you're very close to North 
Dakota, and I'm sure you're pleased about that.
    Mr. Mullaney. Yes.
    The Chairman. Wonderful state. And pleased to be here in 
Minnesota as well, I should say. Mr. Mullaney, you may proceed.

         STATEMENT OF HON. MARTY MULLANEY, PRESIDENT, 
           SATELLITE SHELTERS; BOARD MEMBER, MODULAR 
                       BUILDING INSTITUTE

    Mr. Mullaney. Thank you. Thank you, Chairman Dorgan and 
Senator Franken. As you mentioned, I'm representing the Modular 
Building Institute today. My real job is president of Satellite 
Shelters based in Plymouth, Minnesota, so I'm actually not too 
far from home, and unfamiliar with the territory.
    I just want to step back for a second, and having heard the 
testimony of the three people beside me here, I had to think 
that for myself, and I can't speak for Mr. Rever, it would be 
unlikely that I would be sitting here today had I had the 
challenges that these folks have had in attaining a good 
education, and it's been enlightening testimony for myself.
    Commercial buildings, commercial modular buildings, are 
basically nonresidential structures, 60 to 90 percent developed 
in a factory, delivered onsite and installed; thus, the ability 
to get some serious costs out of school construction and other 
applications as well.
    About two years ago I actually met Mr. Rever in Albuquerque 
at the Bureau of Indian Affairs, and we had a good discussion 
on how we could possibly participate in helping the Indian 
reservations in achieving their goals of more--better quality 
buildings, more cost efficient, and timely. I couldn't help but 
remember the comment you made, I think you mentioned 23-year 
backlog or something like that, and the current processes, and 
it's a frightening situation.
    As a result of the meeting a couple years ago, the BIA did 
put out two requests for proposals for permanent modular 
campuses. I noticed down the road here you've got a couple of 
the modular classrooms that Michael was referring to, and 
they're not the highest, best quality, I can tell you by 
looking from the outside, but it's a start. It's like asking 
the cost of a house. We can build this building or those two 
classrooms down the road in modular.
    I'd like to discuss the two main advantages of modular 
schools. Time advantages, which addresses one of the issues 
brought up earlier. Ability to deliver to a remote location 
appears to be an issue as well, getting a workforce that you 
need.
    Unique to modular construction is the ability to 
simultaneously construct the floors, walls, ceilings, rafters, 
at the same time. During site-built construction, walls can't 
be set until the floors are set and so on. On the other hand, 
with modular construction, walls, floors, ceilings, rafters, go 
up at the same time, brought together in one piece and 
installed on site. This, in time perspective, 30 to 40 percent 
less time for a standard school building from start to finish. 
And because we build this in a controlled environment, and 
certainly the folks in this territory can appreciate this, we 
don't slow down much in the harsh winter months. As a result, 
again, a major cost savings.
    One of the issues that always comes up with modular 
construction, is it as good as original construction? And I can 
tell you that there was recently a request from the National 
Institute of Standards and Technology, and that report came out 
very favorable in recommending modular as one of the innovative 
processes that Senator Franken mentioned earlier.
    Some of the advantages that they, an independent third 
party, came up with: More controlled conditions for weather, 
quality control, improved supervision of labor, and easier 
access to tools.
    Fewer job site environmental impacts because of reductions 
in material waste, air and water pollution, dust and noise, and 
overall energy cost. There was an offsetting point to that that 
they pointed out, and that's the energy related for 
transportation, as well as energy expended at the factory.
    Compressed project schedules. Fewer conflicts in work crew 
scheduling and better sequencing of crafts and other persons. 
And I will make a comment there, that we talked about with Mr. 
Rever, the ability to hire local skilled tradesmen as well as 
unskilled tradesmen to help with the installation of the 
building.
    And increased worker safety, reduced exposure to inclement 
weather, temperature extremes, and so on. We've included in 
attachment one in the handout you've got that goes through 
that.
    Another key advantage to modular construction is our 
industry's ability to deliver in remote locations. Because a 
majority of the structure is built offsite, finding a skilled 
laborforce again is a difficult process in many areas.The 
modular building industry can hire locally.
    Our industry successfully placed buildings in all areas of 
the globe, from the driest deserts in South America to the most 
severe winter climates in northern Canada and Russia. It is 
because of this ability to deliver to remote locations, and our 
shorter construction schedule, that many are looking to our 
industry for a big role in building in Haiti and Chile as well.
    The industry group that I represent represents about 300 
private commercial companies around the United States. We've 
also provided a map to member locations as well.
    In just concluding my remarks, we're well positioned to 
help deliver quality schools to remote locations in a much 
shorter time frame than conventional construction projects. I 
won't sit here and tell you today that modular is the answer in 
every application, but it's certainly an opportunity to 
consider when you're considering any application.
    We believe our record of performance on past projects with 
the BIA and others should give you some level of confidence 
that modular should be one of the innovative solutions to be 
considered as we move forward.
    Again, I want to thank you for your time, and once again, 
if we all had an advocate like Lindsey representing our topic, 
we would be much better off. Thank you.
    [The prepared statement of Mr. Mullaney follows:]

    Prepared Statement of Hon. Marty Mullaney, President, Satellite 
           Shelters; Board Member, Modular Building Institute
    Chairman Dorgan, Vice Chairman Barrasso, and Members of the 
Committee, I am Marty Mullaney, President of Satellite Shelters, Inc. a 
national provider of commercial modular buildings headquartered in 
Plymouth, Minnesota. I am testifying today as the past president and on 
behalf of the Modular Building Institute-a national non-profit trade 
association established in 1983 representing commercial modular 
construction companies.
    MBI appreciates the opportunity to speak to the Committee on ways 
to help provide high quality schools to remote locations in an 
efficient and timely manner.
    Commercial modular buildings are non-residential structures, 60 
percent to 90 percent completed off-site in a controlled environment, 
and transported and assembled at the final building site.
    About two years ago, our industry began conversations with the 
Bureau of Indian Affairs on how we could help the agency better achieve 
its goals. A large part of that conversation was educating key staff on 
the fact that the modular construction industry provides both temporary 
facilities as well as permanent structures.
    As a result, the BIA recently issued two RFPs specifically for 
permanent modular campuses in Kaibato and Wide Ruins Arizona. In fact, 
our industry has successfully delivered on many permanent school 
construction projects across the country including several in remote 
locations.
    I'd like to discuss two main advantages of modular schools with you 
today:

        1) Time advantages of the modular construction process.

        2) Ability to deliver facilities in remote locations in an 
        efficient manner.

    Unique to modular construction is the ability to simultaneously 
construct a building's floors, walls, ceilings, rafters, and roofs. 
During site-built construction, walls cannot be set until floors are in 
position, and ceilings and rafters cannot be added until walls are 
erected. On the other hand, with modular methods of construction, 
walls, floors, ceilings, and rafters are all built at the same time, 
and then brought together in the same factory to form a building. This 
process often allows modular construction times of half that of 
conventional, stick-built construction.
    And because construction occurs in a controlled environment, 
weather delays are minimized and the construction season is extended, 
even into harsh winter months. As a result, the typical modular 
construction schedule is about 30 percent shorter than a comparable 
stick-built project.
    Recently, the National Institute of Standards and Technology (NIST) 
requested that the National Research Council (NRC) appoint a committee 
of experts to provide advice for advancing the competitiveness and 
productivity of the U.S. construction industry. The committee 
identified five breakthroughs to improve the efficiency and 
productivity of the construction industry, including ``Greater use of 
prefabrication, preassembly, modularization, and off-site fabrication 
techniques and processes.''
    Advantages of modular construction cited in the NIST report 
include:

  <bullet> More controlled conditions for weather, quality control, 
        improved supervision of labor, easier access to tools, and 
        fewer material deliveries (CII, 2002);

  <bullet> Fewer job-site environmental impacts because of reductions 
        in material waste, air and water pollution, dust and noise, and 
        overall energy costs, although prefabrication and related 
        technologies may also entail higher transportation costs and 
        energy costs at off-site locations;

  <bullet> Compressed project schedules that result from changing the 
        sequencing of work flow (e.g., allowing for the assembly of 
        components off-site while foundations are being poured on-site; 
        allowing for the assembly of components off-site while permits 
        are being processed);

  <bullet> Fewer conflicts in work crew scheduling and better 
        sequencing of crafts persons;

  <bullet> Reduced requirements for on-site materials storage, and 
        fewer losses or misplacements of materials; and

  <bullet> Increased workers safety through reduced exposures to 
        inclement weather, temperature extremes, and ongoing or 
        hazardous operations; better working conditions (e.g., 
        components traditionally constructed on-site at heights or in 
        confined spaces can be fabricated off-site and then hoisted 
        into place using cranes) (CURT, 2007).

    The summary to this report is included as Attachment One.
    Another key advantage to modular construction is our industry's 
ability to deliver facilities in remote locations. Because a majority 
of the structure is built off site, finding a skilled labor force in 
remote regions is less of a concern. However, the modular industry can 
work with local general contractors for portions of the site work, 
foundations, and set-up of the building to ensure local labor benefits 
from the project.
    Our industry has successfully placed buildings in all areas of the 
globe, from the driest deserts in South America to the most severe 
winter climates in northern Canada and Russia. It is because of our 
ability to deliver to remote locations and our shorter construction 
schedule that many are looking at our industry to play a big role in 
rebuilding efforts in places like Haiti and Chile.
    The MBI represents about 300 companies all across North America and 
is well positioned to help on any school project. Attachment Two shows 
a map of MBI member locations.
Conclusion
    The modular construction industry is well positioned to help 
deliver quality school projects to remote locations in a much shorter 
time frame than conventional construction projects. The industry can 
deliver both temporary facilities and permanent campuses built to meet 
all local, state, or tribal requirements. We believe our record of 
performance on past projects should instill a level of confidence in 
the Committee as well as the BIA that considerations for future 
education buildings and other applications will include a modular 
solution. On behalf of the MBI, as well as Satellite Shelters, I thank 
you for your time and attention.

    Attachment 1

Summary
    In 2008, the National Institute of Standards and Technology (NIST) 
requested that the National Research Council (NRC) appoint an ad hoc 
committee of experts to provide advice for advancing the 
competitiveness and productivity of the U.S. construction industry. The 
committee's specific task was to plan and conduct a workshop to 
identify and prioritize technologies, processes, and deployment 
activities that have the greatest potential to advance significantly 
the productivity and competitiveness of the capital facilities sector 
of the U.S. construction industry in the next 20 years. \1\
---------------------------------------------------------------------------
    \1\ The capital facilities sector includes commercial (including 
high-rise and multifamily residential), industrial, and infrastructure 
projects. It does not include single-family and low-rise residential 
projects.
---------------------------------------------------------------------------
    Because the concept of productivity can be difficult to define, 
measure, and communicate, the committee determined that it would focus 
on ways to improve the efficiency of the capital facilities sector of 
the construction industry. It defines efficiency improvements as ways 
to cut waste in time, costs, materials, energy, skills, and labor. The 
committee believes that improving efficiency will also improve overall 
productivity and help individual construction firms produce more 
environmentally sustainable projects and become more competitive.
    To gather data for this task, the Committee on Advancing the 
Competitiveness and Productivity of the U.S. Construction Industry 
Workshop commissioned three white papers by industry analysts and held 
a 2-day workshop in November 2008 to which 50 additional experts were 
invited. A range of activities that could improve construction 
productivity were identified in the papers, at the workshop, and by the 
committee itself. From among these, the committee identified five 
interrelated activities that could lead to breakthrough improvements in 
construction efficiency and productivity in 2 to 10 years, in contrast 
to 20 years. If implemented throughout the capital facilities sector, 
these activities could significantly advance construction efficiency 
and improve the quality, timeliness, cost-effectiveness, and 
sustainability of construction projects. Following are the five 
activities, which are discussed in the section below entitled 
``Opportunities for Breakthrough Improvements.''

        1. Widespread deployment and use of interoperable technology 
        applications, \2\ also called Building Information Modeling 
        (BIM);

    \2\ Interoperability is the ability to manage and communicate 
electronic data among owners, clients, contractors, and suppliers, and 
across a project's design, engineering, operations, project management, 
construction, financial, and legal units.
---------------------------------------------------------------------------
        2. Improved job-site efficiency through more effective 
        interfacing of people, processes, materials, equipment, and 
        information;

        3. Greater use of prefabrication, preassembly, modularization, 
        and off-site fabrication techniques and processes;

        4. Innovative, widespread use of demonstration installations; 
        and

        5. Effective performance measurement to drive efficiency and 
        support innovation.

    The five activities are interrelated and the implementation of each 
will enable that of the others. Deploying these activities so that they 
become standard operating procedures in the capital facilities sector 
will require a strategic, collaborative approach led by those project 
owners who will most directly benefit from lower-cost, higher-quality 
sustainable projects, namely the large corporations and government 
agencies that regularly invest hundreds of millions of dollars in 
buildings and infrastructure.

    Attachment 2

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    The Chairman. Mr. Mullaney, thank you very much. I 
neglected at the start, but I do want to now introduce Allison 
Binney, who is with us, who is the Staff Director of the Indian 
Affairs Committee. Allison is right----
    Ms. Binney. Right behind you.
    The Chairman. She's right back here. She does an 
extraordinary job. She's from a tribe in California. She's a 
lawyer, and has been the Staff Director for us for six years.
    And I did not mention at the start of this hearing that in 
this Congress, we have passed for the first time in I think 18 
years the Indian Health Care Improvement Act, we've passed the 
Tribal Law and Order Act, we have reauthorized the Indian 
Housing Act. It is the most productive Congress on major Indian 
issues in several decades, and that's due to some extraordinary 
staff work and some members of the Committee such as Senator 
Franken and others who have decided to help make this Committee 
work the way it should work. At a time when people complain 
about Congress not getting much done, it's not true with 
respect to Indian policy. As I said, Indian health care 
improvements, tribal law and order, housing, we're making 
progress.
    Denise Desiderio is with us as well from the Indian Affairs 
Committee, who works on these issues and does a great job.
    Let me call on Senator Franken for questions, and he may 
wish to introduce his staff. I know that staff for Congressman 
Collin Peterson is here, if I could ask them to stand up and 
introduce themselves?
    Ms. Josephson. I'm Sharon from Congressman Peterson's 
office.
    The Chairman. Sharon, thank you very much, and thank you 
for the work you and Collin do on Indian issues as well.
    Senator Franken?
    Senator Franken. Thank you, Mr. Chairman, and we are proud 
of especially the work we've done on passing some major 
legislation in law enforcement and health care, but we have so 
much to do.
    And I would like to recognize some of my staff that's here: 
Bidisha Bhattacharyya, who is on my staff, and Amy Hang. 
Bidisha's in Washington, and Amy Hang who does that job here in 
Minnesota so well.
    Part of doing our job here is probably to try to sort some 
of the what I see as dysfunction in the BIA and the BIE and 
Indian Health Services. And it's easy to point blame. I think 
Mr. Bongo talked about OMB pointing at BIA and vice versa, and 
I don't really want to do that today. I want to find out some 
stuff. I want to move toward solving some of this.
    And just on a general note, Mr. Rever, do you understand 
the kind of frustrations that you hear from Chairwoman Vizenor 
and Mr. Bongo? I mean those aren't new to you, right?
    Mr. Rever. I would like to say they are new to me, Senator, 
but the fact of the matter is that with 63 schools in poor 
condition, it's not uncommon for me to spend a lot of my time 
on the road visiting schools, because I want to see for myself 
the condition, what is needed to bring them into acceptable 
condition, and yes, I do hear complaints about the priority 
list, how it's established, the rules, are we on or are we off, 
and that's why the negotiated rulemaking committee that's 
meeting now, which is compromised of 25 representatives from 
Indian tribes from across the country, are in a committee. I'm 
just a committee member. The Chairmen are American Indian 
citizens.
    Senator Franken. Okay. But this history, let's do some 
history, and maybe I'll back up a little bit. Let's talk about 
the trust responsibility of the Federal Government. Chairwoman 
Vizenor, I'd love for you to talk about it, and Mr. Bongo. The 
original deal here was that in exchange for their lands, that 
in perpetuity, the education and health care of Native peoples 
would be taken care of, right?
    Ms. Vizenor. Yes.
    Mr. Bongo. Yes.
    Senator Franken. So that's why we're talking about this is 
our responsibility, this is the responsibility of everyone, of 
everyone in the United States. Part of the deal. You paid for 
your schooling, for your kids' schooling, in the perpetuity as 
part of this deal, and we're just not keeping our end of the 
deal.
    Now, I personally felt the same frustration on these lists, 
I'm sure not as deep as the Chairwoman and Mr. Bongo, but our 
office kept trying to find the list. I mean I'm a United States 
Senator, on the Indian Affairs Committee, calling your office 
and not being able to get the list. Now, this committee, when 
is it scheduled to have its rules finished?
    Mr. Rever. We anticipate that the committee will finish its 
meetings about this time next year,and perhaps by the end of 
the year have the recommendations on the formulation of the 
priority list to the Secretary of Interior.
    Senator Franken. Why should it take that long?
    Mr. Rever. The schedule of the committee, with the 25 
members, is about once every three months, meeting across the 
country in various locations, in a consultative manner, to hear 
from local tribes and tribal members on what should constitute 
the rules for establishing the list. It is a prolonged process.
    Senator Franken. This is under No Child Left Behind?
    Mr. Rever. Yes, sir, it is.
    Senator Franken. And when was that law written?
    Mr. Rever. My memory fails me. Near 2003, though.
    Senator Franken. And this law in making the rules has been 
on the books since then, hasn't it?
    Mr. Rever. It has.
    Senator Franken. So we're talking about the end of 2011 for 
a law that was written in 2001? That's 10 years to promulgate 
the rules. Can you see the root of the cynicism and impatience? 
That actually is a question.
    Mr. Rever. Yes, sir, I understand the frustration.
    Senator Franken. Okay. Mr. Bongo, the school that Ms. White 
goes to, it's been on the list, on and off the list, right? And 
let's make it clear what this list is, please, or purports to 
be.
    Mr. Bongo. That's a difficult question to answer directly, 
Senator, primarily because from what I can gather, and just 
hearing my colleague, Chairwoman Vizenor, when we approached 
the Bureau about the deplorable conditions of our school and 
the need for the new school, I can only characterize it as we 
were put through the BIA playbook for new school requests. By 
that I mean--it sounds like they went through the same thing. 
You're on the list. No, you're not on the list. No, there isn't 
a list. Can you be a little more definitive? I still am waiting 
to see the list myself.
    Senator Franken. Chairwoman Vizenor, let me ask you how 
responsive BIA is to--just to when you're trying to respond to 
submitted plans for constructions of the school and things like 
that.
    Ms. Vizenor. For the past 10 years I've been involved, 
except for two years when I wasn't in office, but for the past 
eight years I've been actively involved, working hard to get 
the funding for a new school at White Earth. We've had to take 
tribal attorneys to Albuquerque, we've had to sit on telecom 
meetings and ask and ask and ask, and continually we don't 
know. Our education director is here today as well, and you 
know, over the past six years that I've been Tribal Chair, I 
have called her at least every two weeks, ``Where are we with 
the Circle of Life School? '' We're cut down on the funds 
because of the student projections.
    Senator Franken. Now, let's talk about these projections 
for a second.
    Ms. Vizenor. Okay.
    Senator Franken. The projections are based on the fact that 
kids have left the school because the school's in such 
deplorable condition?
    Ms. Vizenor. Exactly. Yes, Senator.
    Senator Franken. But if you had an actually really well-
built school there, then more kids would come, right?
    Ms. Vizenor. Absolutely.
    Senator Franken. And so the plan should be for a larger 
school. Now, I want to read from something that I have here. In 
White Earth's contract with BIA for the construction now that's 
been approved, the agency has 21 days to respond to each of the 
Tribe's submitted plans for construction of the school, yet 
there have been instances where the BIA has taken over two 
months to reply. In other cases the Tribe has received no 
comment or response at all. Is that true?
    Ms. Vizenor. Excuse me. Would you repeat that again? I'm 
sorry.
    Senator Franken. Okay. In White Earth's contract with the 
BIA for the school construction, this is once you got funding, 
in the contract, the agency, the BIA, has 21 days to respond to 
each of the Tribe's submitted plans for construction of the 
school, yet there have been instances when the BIA has taken 
over two months to reply, and in other cases the Tribe received 
no comment or response at all. Is that true?
    Ms. Vizenor. That's correct, Senator.
    Senator Franken. Now, Mr. Rever, what accounts for this 
lack of responsiveness on the part of the BIA Regional Office 
in Albuquerque?
    Mr. Rever. Senator Franken, I'm not familiar with the 
circumstances of the Circle of Life School and the 
responsiveness or non-responsiveness. I would say that during 
the immediate past year and a half, the Circle of Life School, 
the prolonged period of time to get it under construction after 
the planning phase ran into the largest single appropriation in 
Indian Affairs education construction history, and that was the 
Recovery Act. Sir, $280 million, 14 major projects, 4 new 
schools, a total of 141 projects. I don't have an infinite 
staff, and so there are going to be delays during that period. 
I will attribute some of that to just the physical 
overwhelming----
    Senator Franken. You're too busy because you're flooded 
with money?
    Mr. Rever. Well, sir, we're not flooded with money, we're 
flooded with work, and 141projects is a significant workload 
for any organization that doesn't have a staffing increase to 
meet it, and----
    Senator Franken. And one of the projects is not to replace 
Bug-O-Nay-Ge-Shig School, even though it had been on the list 
at some point, right?
    Mr. Rever. I'm not aware that it was on any list that I'm 
familiar with, that I'm aware of, no, sir.
    Senator Franken. Mr. Bongo?
    Mr. Bongo. The BIA playbook for new school requests. It's a 
shell game. One minute you're there, and the next minute you're 
not even on the face of the planet.
    Senator Franken. You know, my office had terrible problems 
to get the list, and I would urge you to put these online and 
not have this lack transparency anymore.
    Mr. Rever. Yes, sir. Mr. Franken, Senator, as a result of 
the earlier hearing we had, and at your request, we did put 
those online. They are available. It's by Facilities Condition 
Index. It lists all 63 or 64 schools as of today in poor 
condition.
    Senator Franken. And is Bug-O-Nay-Ge-Shig on that list?
    Mr. Rever. It is, sir.
    Senator Franken. And where is it?
    Mr. Rever. The last time I looked on the Facility Condition 
Index order, which is not the priority order that we would 
attach to schools, it ranked probably in the bottom 25 percent 
based on Facility Condition Index standards to measure the 
schools.
    Senator Franken. Let's get to the cost of these schools. 
You told my staff earlier this year it costs approximately 30 
to 50 million dollars to replace a BIE school, and there's only 
$52.8 million in the President's budget for Indian school 
construction for this year, so we have an enormous cost per 
school, and barely any money in the budget to fund 
construction. Is it your experience that the costs replacing a 
BIE school is comparable to costs associated with building 
schools in non-tribal areas?
    Mr. Rever. It is in rural areas, Senator Franken. Our cost 
experience is no different than most others in building 
schools. We've compared ourselves to state cost in the rural 
communities and others. Even in Indian Country, though, there 
are some unique costs for things such as utility systems to 
support them, roads, and infrastructure. We're dealing in very 
remote locations in which the infrastructure is not up to the 
standards necessary to support modern-day construction and 
operation of education facilities, so a good portion of the 
dollars that we devote to our construction projects goes to 
building infrastructure, not to support it, which also benefits 
the Tribe because of the distribution of lights, water, sewer 
system, roads, and sewage treatment. I mean those are all 
advantages to the whole community when we get around to being 
able to build them. And that does add to the cost of the 
schools.
    Senator Franken. So many of these communities don't have 
that basic infrastructure, is what you're saying?
    Mr. Rever. They don't have enough to support it. For 
instance, sir, it's not uncommon in small communities that go 
back 60 and 70 years to have single-phase electric service. We 
don't build anything anymore that can get by with single-phase 
electric service. We're now talking three-phase service. I mean 
there's heating, ventilating, air conditioning, all of the 
systems that have to go into it. Even lighting in the parking 
lots. All of these add to what's necessary to build a new 
school today.
    Senator Franken. Mr. Bongo, you seem to have something you 
wanted to say.
    Mr. Bongo. Yes, Senator Franken, Mr. Chairman. I was handed 
some information here that could be of interest.
    Of the 141 projects that Mr. Rever spoke of, none of those 
projects were in Minnesota. Of the 25 representatives from the 
rulemaking committee, not one is from the Upper Midwest.
    If the Bug-O-Nay-Ge-Shig School truly is in the lower 25 
percent of school replacements, I shudder to think what the 
other 75 percent must look like, because if the Bureau has 
allowed our children to go to school in this type of 
environment, and this is in the lower third of replacements on 
the list, can you imagine what the other two thirds must look 
like?
    Senator Franken. Is the 25 percent the worst 25 percent or 
the best 25 percent of the 100 percent that are on the list? I 
just want to make sure we know what we're talking about here.
    Mr. Rever. And a word of clarification is probably 
necessary, Senator. In the list of 63 schools, the school ranks 
somewhere around 42 in the condition assessment, being that 
there are 40 schools in worse condition than the Leech Lake 
school.
    Senator Franken. I have a list, and actually it says 
something quite the opposite. 64, and it puts----
    Senator Franken. Oh, it's non-prioritized?
    The Chairman. It's alphabetical.
    Senator Franken. It's alphabetical. Okay. Then Bug-O-Nay-
Ge-Shig would be up there, then, wouldn't it? Okay.
    Let's talk about the cost of these schools, and that's why 
you're here, Mr. Mullaney.
    Mr. Mullaney. Okay.
    Senator Franken. What are the pros and cons? And Mr. Rever, 
I want you to answer this, too. Obviously, if you build a 
school entirely on tribal land, part of the cost is labor, and 
maybe even training labor, but Chairwoman Vizenor, that would 
be something good, right?
    Ms. Vizenor. It would be. When we have construction on our 
reservation, we put our local people to work. We have high 
unemployment, and we could have all prefab housing if 
employment wasn't a consideration.
    Senator Franken. Right.
    Ms. Vizenor. And the same goes for schools. I think with 
the school, modular schools, they are probably good buildings 
and facilities for--I wouldn't consider that, because we want 
to build a school that's culturally appropriate. Our design, 
our atmosphere, I don't know if they build culturally-
appropriate schools.
    Senator Franken. You design to specifications, can't you?
    Mr. Mullaney. Yes, Senator Franken. In fact, the industry 
itself has migrated from your single classroom trailer to 
permanent facilities. And in fact, I'll be glad to supply the 
handouts of permanent schools we've done that could have been 
done with general construction, but were modularized, and 
frankly, if I put the pictures side by side, no one in this 
room could tell the difference of whether they were built in 
the plant or built on the site.
    Now, to be fair to your concern about putting all your 
people to work, that would be an issue where we do 30 to 40 
percent on site, and the opportunities for employing multiple 
workforce are not as great as traditional construction.
    Senator Franken. And there's nothing, obviously, you can do 
about the kinds of infrastructure costs Mr. Rever's talking 
about?
    Mr. Mullaney. Completely separate.
    Senator Franken. Yes. Okay. Ms. White, and I feel like I'm 
going on a little long, but the Chairwoman talked about the 
attrition, loss of kids, at their school, Circle of Life 
School, because of the conditions, and that parents wanted 
their kids to go to a school that was in better condition. Have 
you experienced that during your 12 years at your school?
    Ms. White. Yes, I have, actually. Like growing up, when I 
was in elementary school, when I was in middle school, like 
other kids from other local schools, and even now today, I can 
hear some people, ``You go to Bug School,'' like I'm stupid.
    Senator Franken. So in other words, your school's kind of 
known as----
    Ms. White. The dumb school. Even though there are many 
people that are just as smart as any other Native American 
school, or non-Native, and it's kind of insulting, really.
    Senator Franken. Does it have that reputation because of 
the physical plant, or because of the----
    Ms. White. Yes, that and a lot of parents I've met don't 
want their kids going there because it looks the way it does, 
and they just want them to go to a better looking school.
    Senator Franken. And do kids ever think of themselves, why 
is this place like this? Why is it cold in this room?
    Ms. White. Yes.
    Senator Franken. Why is it hot in this room? Why in the 
winter is it so cold, it's just so cold, and is it because I'm 
an Indian, because I'm Native American, in other words, does 
this get to an issue of self-esteem? I mean this is a very 
personal question, and I'm asking you maybe to interpret too 
much, or is there ever any discussion like that?
    Ms. White. Yes. With me in some of my classes we ask like 
why is this room too hot, on some days when we think it's too 
hot, and others too cold. Personally, when I was younger, I 
thought that. I just thought, because I see other schools being 
helped, and I was like, why is my school not being helped? Does 
the BIA care about my school? Do they even care? I just, 
myself, I thought they didn't care.
    Senator Franken. Thank you. Mr. Chairman?
    The Chairman. Senator Franken, thank you very much. You've 
covered a lot of ground here, and----
    Senator Franken. Sorry.
    The Chairman. But important ground as well. Ms. White, what 
are you going to do next?
    Ms. White. After school? Like after I graduate, or what?
    The Chairman. Yes.
    Ms. White. I'm applying to colleges right now, looking at 
schools, but I was thinking of going to college for business, 
and also probably law, because I want to come back to my 
reservation later and help with the businesses, get more jobs, 
and also help educate other people, and I also wanted to open 
my own small business, to do bead work. I want to sell my 
products and help people in the community and do those things.
    Mr. Bongo. Mr. Chairman, another little-known fact about 
her, she's also a quasi robotic engineer. She has built robots.
    The Chairman. Are you familiar with FIRST Competition?
    Ms. White. Yes.
    The Chairman. Good for you. What's that?
    Ms. White. I would also like to add, this past summer I 
went to LEAD Summer Business Institute for three weeks at 
Northwestern University, where I learned about business and 
management. That really helped me, because that's what I want 
to do in college.
    The Chairman. Dean Kamen, do you know Dean Kamen at all? 
He's America's modern Thomas Edison.
    Ms. White. I've heard of him.
    The Chairman. He's the person that started the FIRST 
Competition, and he's going to be in Fargo in a couple of weeks 
at a conference we're putting together, perhaps I can talk to 
you afterwards. I hope you'll come.
    Dean Kamen, though, he invented the Segway, he invented the 
insulin pump, he invented the wheelchair that climbs stairs. 
He's now inventing a new bionic arm for the military for 
soldiers who have lost their arms and legs. He's today's Thomas 
Edison. He's a remarkable man. We're going to have students 
involved in the FIRST Competition, as part of that in Fargo, so 
I hope you will come.
    Well, that's an aside, you know, I'm inspired by your 
desire to move on and do other things, and the fact is that 
there shouldn't be any young American child, Indian or non-
Indian, that goes to a school that puts them at a disadvantage, 
you know, goes to a school where desks are one inch apart, 30 
to a room, in a school building that's condemned. I mean I've 
seen all these things. I saw one today.
    Chairwoman Vizenor, the school that we visited today has 
previously been condemned. How many years have students worked 
and studied in that school after it was condemned?
    Ms. Vizenor. The school was condemned by state consultants 
in 1999. It was not conducive to learning.
    The Chairman. And 11 years later, students are going to 
class and preparing to graduate for another year, that really 
tells it all, doesn't it? That we have responsibilities that 
we've simply not met.
    Mr. Rever, the Economic Recovery Act which you described 
gave a boost, which is helpful. By the way, the proposal on the 
Economic Recovery Act had no money for American Indians. Zero. 
We, Senator Franken and myself and others, got $2.5 billion put 
in for Native American programs. Of that $2.5 billion, about 
$280 million was used for education facilities. And that comes 
as a result of our deciding you can't do this, you can't 
possibly do this, try to jump start this economy, and put 
people back to work, and build facilities and structures that 
we need, and decide that Indians don't matter, because we made 
a promise, signed treaties, we have trust responsibilities, 
we've got to meet them.
    Now, you indicated in your written testimony, that with the 
$278 million we built three new schools, and in your oral 
testimony you said four new schools. Is it three or four?
    Mr. Rever. It's three, Senator. It's three total new 
schools, but----
    The Chairman. That's my question.
    Mr. Rever. Yes.
    The Chairman. And the three new schools,it appears to me, 
if you're talking three schools and it took $134 million, 
that's $45 million a school. Is that about what you're 
spending?
    Mr. Rever. You're close, yes, sir.
    The Chairman. You know, it just seems tome we ought to be 
able to do better than that, and that gets back to Mr. 
Mullaney. You know, when we talk about modular construction, 
we're thinking about a shed somebody hauls in behind the school 
to handle the extra students.
    Mr. Mullaney. Yes.
    The Chairman. So why would we talk about that? And then you 
say, well, it's not a shed anymore, and you will not 
distinguish between a permanent building or a modular 
structure. So if you put a modular structure up on this 
reservation for for a new school, will it be around as long as 
the $45 million or whatever it is that Mr. Rever's going to 
spend to put up a new school somewhere?
    Mr. Mullaney. Yes, sir, Mr. Chairman. In fact, we're doing 
a lot of work for the Federal Government, specifically a lot of 
barracks work on military bases, as well as headquarter 
buildings. The requirement for that product is a 50-year 
lifecycle, and that's what you have with general construction. 
And that 50-year lifecycle has to be a certified 50-year 
lifecycle. Now, I'm not going to tell you all the modular 
products have a 50-year lifecycle, it has to be designed to 
meet that criteria, but it's certainly a viable modular 
solution.
    The Chairman. Mr. Rever, so we have this rulemaking now, 
and there's going to develop from that a new list, right?
    Mr. Rever. Yes, sir.
    The Chairman. Will it be a, quote, new list?
    Mr. Rever. It will be a new list.
    The Chairman. All right. And so how about those folks who 
have been on it? Now, you'll say, and Mr. Bongo says, they say 
different things. Mr. Bongo says I've been on the list. You say 
you're not aware of that. Perhaps we can try to track that 
down. And Senator Franken is absolutely right, it's very hard 
to track down a list at your agency. But notwithstanding, when 
a new list comes out, what about the schools that were near the 
top of the old list?
    Mr. Rever. Sir, it would be my expectation that they would 
remain near the top of the new list. The list--if I may, sir?
    The Chairman. Yes, and then also just respond, if you 
would, to Mr. Bongo's question about nobody from Minnesota--
well, that's not surprising, there's 50 states, but nobody from 
the northern region, so respond to that as well.
    Mr. Rever. Well, my immediate response, sir, is to just 
look at the number of schools in Minnesota compared to in 
Navajo or other locations. I mean the numbers would indicate 
that it would likely not be possible that money would be 
devoted under the Recovery Act, because they weren't high 
enough on the priority list to start out that we were using at 
the time.
    Now, I mean we just took the existing list and used that to 
build the Recovery Act project. The way that I see that 
priority list, and I'm speaking somewhat out of turn because 
this is the Committee's decision, not mine.
    The Chairman. I understand.
    Mr. Rever. Is that we will, in accordance with Indian 
Affairs policy, establish a worst first list, a list of all 
schools, regardless of whether they need to be replaced, 
repaired, or simply just put some money into to bring them up 
to acceptable condition, and then take that list and say, okay, 
we'd gladly look at each one of the schools.
    Now, the Bug School, sir, needs to be replaced. I'll be the 
first to tell you, there's no question in my mind, I've been 
through the building, I understand that. And when its time 
comes, it won't be improved or repaired, it will be replaced. 
The question is, when does that time come? Well, you have this 
list. Worst first priority. And then you let the engineers and 
the program decide whether it should be repaired or replaced or 
a combination of those two in order to provide an adequate 
facility.
    Right now, the way the program budget is based, 
unfortunately it's based on the 2004 priority list, which is 
for replacement schools. It doesn't even talk about improve and 
repair projects. It's just replacement schools. So now we're 
faced with a problem, and I'm the first to tell you that we 
need a new method of coming up with a priority list, and it 
needs to be one list, and then you decide how you're going to 
create it.
    The Chairman. I understand that you only have the money 
Congress provides you. I understand that. On the other hand, 
you know, the hearing that I held in Washington, you were there 
and Larry Echo Hawk was there. I mean I saw conditions in 
schools in which fire alarms didn't work, and you know, things 
that were just intolerable to parents, students, and I assume 
to those that run the program, and so somebody has to blow the 
whistle here to say to Congress, Are you nuts? You're going to 
sit by and some day see a school go up in flames and see kids 
lose their lives, and then you're going to wonder how it 
happened and why it happened. You had all the information.
    Somebody's got to be blowing whistles here to say this is 
not right. And so the question is how do we do that? I have an 
alphabetical list of 63 schools. Doesn't mean anything to me 
much in terms of what's the relative deficiencies. If the Bug 
School, as Lindsey calls it, is in the bottom third or so, that 
means these are all in poor condition, it means there are 40 
that are in worse condition, and you say this one has to be 
replaced or would be replaced. Almost inevitably, then, the 40 
above it would be replaced, and you're talking about spending 
40 and 50 million dollars a school. Does that mean that the so-
called Bug School might be around here another 15 years, trying 
to teach kids like Lindsey when they're wearing their coats in 
the winter? I mean somebody's got to blow the whistle here and 
say this is not right, and it's not safe for the kids. It's 
injuring their education, and it puts kids at risk.
    Mr. Rever. May I respond, sir?
    The Chairman. Yes.
    Mr. Rever. The reason that we look at the Bug School to be 
replaced is the construction of the school. It's not conducive 
to meet current code requirements, nor provide a satisfactory 
education because of its current construction. We have a large 
number of schools on that list that are old but structurally 
sound, and are worth improving and repairing rather than 
replacing the whole school. And so that's where the $1.3 
billion comes from.
    It's not our intent to build all new schools. Sir, we would 
never get there. But the $1.3 billion is to improve and repair 
some and replace others as we go through the priority list.
    Now, I would also like to point out, sir, to the Committee, 
two things. One is that, as Mr. Mullaney mentioned, I started 
talking to the modular building industry two years ago. We just 
awarded our first construction contract to a school which will 
include elements in modular construction. We are also looking 
at innovative construction techniques, new roofing materials, 
new wall materials, all in an effort to address the cost of 
construction, which largely we can't control, because the part 
of the market that controls it, the world economy controls the 
cost of materials and labor, and so we don't have much control 
over that.
    What we can do is adapt new methodologies and new materials 
to address that, and to that end we had a very large and 
successful construction conference several years ago, and we've 
just awarded a contract to move in that direction.
    The Chairman. All right. If not all of the 40 schools that 
are in worse condition than the Bug School are going to be 
replaced, some repaired, how many do you estimate will be 
replaced? Do you have an estimate of that?
    Mr. Rever. I'm looking at perhaps 20 to 30 percent of them 
would be replaced, the rest will be improved.
    The Chairman. So 30 percent of the 40 schools above the Bug 
School, that's 12 new schools, 40, 50 million a piece, unless 
you find ways to substantially reduce the cost.
    Mr. Rever. Right.
    The Chairman. You know, Mr. Bongo makes a very passionate 
and persuasive case, that there's not much he can do, and not 
much Lindsey White can do, except sit here and say, Do you know 
what? You made promises, the country made promises, and you're 
not keeping them. And Mr. Bongo should not be satisfied, and 
I'm glad he's not, and I'm glad he's raising his voice about 
this, he's not resonant about doing that, he should not be 
satisfied that this would ferment for another five or 10 or 15 
years. It's not fair to the kids. It wasn't fair to Lindsey 
White for her 12 years, and it won't be fair to the kids that 
are now starting first grade if we don't find ways to address 
this. This is, you know, in many ways a contractual obligation 
this country made.
    I think Senator Franken put it very well at the start of 
this hearing. This country said, Do you know what? We'll 
promise, we'll sign treaties, we'll meet our promise, and we 
just haven't done it. So it's enormously frustrating.
    And I think that, you know, I have schools in North Dakota 
that, you know, have problems and need repair, like in 
Minnesota and across the country, and it always seems to be the 
same situation; we need funding, we need to devote more funding 
to this and to that, and I could have the same hearing with 
respect to detention facilities. It's a shame.
    Senator Franken, I think in terms of wrapping this hearing 
up, unless you have some additional questions, we'll wrap up 
the hearing.
    Senator Franken. I don't, I just have a comment. One is 
that we are going to miss you,Mr. Chairman. I think that's very 
apparent.
    Two, you know, as you point out, this is an obligation that 
was made by the United States of America, and I think those of 
us who are on Indian Affairs are very well aware of that, and 
maybe some of our colleagues who aren't, are not as aware of 
that; part of the reason for this hearing is to make the people 
in the United States aware that as a nation, we're not living 
up to our word.
    Mr. Rever can't build schools with money he doesn't have. 
And I'd like to ask the BIA to be more responsive sometimes, to 
be more transparent. I know that I hear not just from Mr. Bongo 
and the Chairwoman that they have some frustrations with the 
BIA, but what it really comes down to is whether the people of 
the United States will fulfill the obligations that it made, 
and whether the people of the United States are even aware that 
they've made that obligation.
    And I'm glad that we have members of the press here 
covering this hearing, because I think that most Americans are 
people who feel like our country should live up to its 
obligations, especially to our first Americans.So I just want 
to thank all of you for being here, each and every one of you, 
and the Chairwoman seems to want to say something.
    Ms. Vizenor. I just want to very quickly just send 
appreciation to Senator Franken. Long before he was in the 
Senate, he told us, as tribal people, I've asked to serve in 
the Senate in Indian Affairs. Meegwetch, Senator. You're 
fulfilling your promise to us.
    Senator Franken. Do the best that I can.
    Ms. Vizenor. And Senator Dorgan, we regret to see you 
leave. [Native language spoken.] I'm so appreciative and so 
humbled by this very significant Senate hearing happening at 
White Earth, taking place here.
    The Chairman. Madam Chairwoman, thank you very much. Thanks 
for being such a gracious host. And while I am leaving the 
Congress after 30 years in January, I intend to continue to be 
involved in American Indian issues, and you'll know that and 
see that, but it has been a great privilege to serve, and it's 
been a special privilege to try to find ways to improve the 
lives of the first Americans, those to whom we've made so many 
promises.
    The hearing record for this hearing will remain open for 
two weeks from today. If there are those who wish to submit 
formal testimony to be a part of the permanent hearing record, 
you may submit them to the Indian Affairs Committee, and we 
will accept them and put them in the permanent record.
    In the meantime, all of us will continue working. I 
especially thank the five of you who have come to present 
formal testimony for the record.This is the mechanism by which 
we build a public record in a forum, and hopefully push for 
better solutions. We thank you very much.
    This hearing's adjourned.
    [Whereupon, at 2:19 p.m., the hearing was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
